<html>
<title> - NOMINATION OF DOUG MANCHESTER TO BE U.S. AMBASSADOR TO THE COMMONWEALTH OF THE BAHAMAS</title>
<body><pre>[Senate Hearing 115-688]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-688

                 NOMINATION OF DOUG MANCHESTER TO BE 
                  U.S. AMBASSADOR TO THE COMMONWEALTH 
                            OF THE BAHAMAS

=======================================================================

                                HEARING
                                
                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 2, 2017

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                   
                   
                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-710 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                             (ii)        

  
                         C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1


Manchester, Doug, of California, to be Ambassador Extraordinary 
  And Plenipotentiary of the United States of America to the 
  Commonwealth of The Bahamas....................................     2

    Prepared statement...........................................     4

    Responses to Additional Questions Submitted for the Record by 
      Members of the Committee...................................    11




                             (iii)        

 
NOMINATION OF DOUG MANCHESTER TO BE U.S. AMBASSADOR TO THE COMMONWEALTH 
                             OF THE BAHAMAS

                              ----------                              


                       WEDNESDAY, AUGUST 2, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:00 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
presiding.
    Present: Senators Rubio [presiding], and Menendez.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good afternoon. It is now noon, and this 
hearing of the Senate Foreign Relations Committee will come to 
order.
    This is a full committee hearing on the nomination of Mr. 
Doug Manchester of California to be the Ambassador 
Extraordinary and Plenipotentiary of the United States of 
America to the Commonwealth of The Bahamas.
    Mr. Manchester is Chairman of Manchester Financial Group. 
He is a true industrialist, with accomplishments on a national 
and international scale involved in telecommunications, radio 
broadcasts, medical instrumentation, publishing, real estate 
development, and we will be hearing from him in a moment.
    In the interest of time, knowing it is already noon, I am 
going to defer any further comment now to the ranking member so 
that we can get to the nominee's introduction and questions.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Very briefly, Mr. Manchester, I appreciate your willingness 
to appear before the committee after a lengthy hearing that 
just took place. I appreciate your staying power.
    I understand that there are some significant problems with 
your paperwork, including discrepancies and incomplete answers 
that did not fully align with your Office of Government Ethics 
paperwork and your FEC filing. So I know we have made progress, 
but I still think we have some questions and I would urge you 
to deal with those questions as they come your way so that we 
can have all of your paperwork ready to be considered in its 
totality.
    And then finally, The Bahamas may be a small island, but it 
is part of our Caribbean initiatives. Particularly, I am 
interested in how we get The Bahamas to start voting with us, 
for example, at the OAS on Venezuela and other places, and what 
we do in combatting transnational crime and drug trafficking. 
So I look forward to your views on that and other things as we 
proceed.
    Senator Rubio. And, Mr. Manchester, I am going to recognize 
you now for your opening statement. My free and unsolicited 
advice is that your whole statement is going to be in the 
record. The shorter your statement, the shorter the hearing 
will be. Let me put it that way.
    I would just echo what the ranking member said. I do not 
think there is any notion that it is intentional, but it is 
difficult when you come from the world of business to the world 
of politics, which is what an ambassador is. The paperwork is 
lengthy and extensive. I know it takes a lot of time and 
manpower, as I have commented to you. The more things you own, 
the longer it takes to fill these things out, but obviously a 
lot of these nominations here get held up because people 
struggle to get that in. So the quicker we can get that 
paperwork in, the faster the processing can happen. I imagine 
you are working very hard on that as it is. But I echo that, 
and that is true of all nominees that come before us.
    So with that, I recognize you for your opening statement, 
and I just thank you for your willingness to serve America.

 STATEMENT OF DOUG MANCHESTER, OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE COMMONWEALTH OF THE BAHAMAS

    Mr. Manchester. Well, thank you very much, Chairman Rubio 
and Ranking Member Menendez. I appreciate your comments. That 
paperwork is in the works, has been completed, and has already 
been submitted.
    I really thank you for considering my nomination to serve 
as this great nation's Ambassador to The Bahamas. I am honored 
by this immense privilege entrusted to me by President Trump. 
In addition, I want to express my gratitude to Secretary of 
State Rex Tillerson for supporting this appointment. If 
confirmed, I am confident that my qualifications will allow me 
to represent our government to promote stronger bilateral 
relations to The Bahamas. After all, it is, as I will continue 
to discuss, our third border to our country, 50 miles from our 
shore. So goes America, so goes The Bahamas. It is very 
important for us, as Secretary Tillerson assured me, it is 
very, very important for us to keep them close to our shore.
    Let me just start by saying--let me give you a little 
background of who I am. My mom and dad ran away from home when 
they were 17, went out to California to work for the factories. 
In 1942 I was born, and in '45, a lot of people do not really 
remember what they were doing at age 3. I do not remember much, 
but I remember one thing. I was driving down the street, 
hanging on to the back seat or the front seat of the Coupe. My 
mother was driving, her best friend next to her, and all of a 
sudden the car stopped and horns were honking, and my mom 
started to cry, so I cried. But her tears were of joy because 
it was the end of World War II. That was a thing that is always 
very, very close in my memory.
    After World War II, my father got a job in San Diego, 
California, in my opinion one of the great cities in this great 
America. And I was able to work my way through college at San 
Diego State University and went into business.
    My greatest accomplishment is the fact that I have a 
beautiful wife and eight wonderful children, and 13 incredible 
grandchildren.
    I was very blessed to be in a lot of different businesses. 
I think I have a list here. You have them listed. You have 
already gone over some of them, but Spectrum Telecomm, real 
estate, medical instrumentation, including the volumetric 
infusion pump that saved millions of lives, the automatic blood 
pressure readout, the Lexus thermometer, broadcasting, 
publishing, construction, hotel ownership. I was fortunate 
enough to build the second-largest Hyatt in the world, the 
second-largest Marriott in the world, and an incredibly 
successful convention center on the waterfront in San Diego.
    All of this, 20-plus companies, surrounded myself with 
outstanding employees and incredible consultants, and had the 
opportunity to surround myself with very, very brilliant and 
wonderful people. But my philosophy has always been this, that 
there is no ``I'' in ``team,'' and the fact that you have to 
build a team and you have to recognize their various talents, 
and as a result I was able to, in fact, accomplish a lot, a lot 
of which will be very, very important, in my opinion, in 
running a successful embassy in The Bahamas.
    Working together in concert with the U.S. Embassy and the 
Commonwealth of The Bahamas has a tremendous opportunity to 
attract more business interests, increase economic stability, 
and to address regional challenges associated with drugs, human 
trafficking, and illegal migration.
    If confirmed by the Senate, I would dedicate all my passion 
and experience and ability to ensuring the United States of 
America maintains a mutually beneficial presence in The Bahamas 
that creates greater prosperity for America and the Bahamian 
citizens.
    Having employed thousands of people over the years, I have 
seen the impact that a job and a paycheck can have on a 
community. I will do all in my power to advocate for the U.S. 
companies and entrepreneurs to invest in The Bahamas. As our 
closest neighborhood, as I previously mentioned, after Canada 
and Mexico, we must ensure we maintain a strong presence, and 
we must demonstrate our capabilities in The Bahamas to help the 
country create jobs and improve economic performance. When the 
world is working and families have incomes, it is a more secure 
place.
    In addition to our historically close economic and 
commercial ties, we have used our diplomatic relationships to 
help The Bahamas address multiple concerns, from crime to 
environmental protection. We must continue to work together on 
increasing overall economic stability and reducing crime, 
tackling human and drug trafficking. As Secretary Tillerson 
said directly to me, he said, listen, OAS, the U.N. vote, we 
are joined at the hip, and we want to continue to, in fact, do 
all we can to do what we can to create America and The Bahamas 
close to us.
    Mr. Chairman, in closing I would like to say I had a 
blessed life growing up in the greatest country in the world, 
and obviously in one of the great cities in that country, and 
being nominated to represent the U.S. has been remarkable and 
an honor and a deeply humbling experience.
    I pledge to you and the American people that if confirmed 
by the United States Senate, I will work tirelessly, 
spiritually, professionally, and alongside Congress to 
faithfully represent American interests. I appreciate the 
opportunity to appear before you today, and I want to take this 
opportunity to God bless you and every one of the other 
senators. One of the things that has happened through this 
whole experience is that I have understood, for the first real 
time in my life, how hard the Senate and the Congress work. I 
mean, you all are doing a great job for our country, and on 
behalf of our country, I thank you.
    I am open for any questions.
    [Mr. Manchester's prepared statement follows:]


                 Prepared Statement of Doug Manchester

    Chairman Rubio, Ranking Member Menendez, distinguished members of 
the committee:
    Thank you for considering my nomination to serve as this great 
nation's Ambassador to The Bahamas. I am honored by this immense 
privilege entrusted to me by President Trump. In addition, I want to 
express my gratitude to Secretary of State Rex Tillerson for supporting 
this appointment. If confirmed, I am confident that my qualifications 
will allow me to represent our government to promote stronger bilateral 
relations with The Bahamas.
    Let me tell you about myself. Most people do not remember much of 
anything at age 3, but in 1945 in Los Angeles, I held on to the back 
seat of a coupe my mother was driving. Suddenly, the car stopped and 
horns began honking. I didn't know what was happening, but I started to 
cry when I noticed my mother was crying. Hers were tears of joy 
commemorating the end of WWII. Beginning at this young age, I came to 
understand the importance of U.S. foreign policy, our position in the 
world, and the great responsibility we as Americans share.
    After World War II, my father got a job in a San Diego factory, 
which gave me the blessing of growing up in one of America's finest 
cities in the greatest country in the world. I worked my way through 
San Diego State University, and the long hours combined with academic 
rigor instilled in me a work ethic that has remained vital throughout 
my life. Today I am blessed with a beautiful wife, 8 children, and 13 
grandchildren--a family which constitutes my greatest accomplishment. I 
have had the wonderful fortune of success in insurance, real estate, 
medical instruments, broadcasting, publishing, construction, hotel 
ownership and management, and oil drilling. I have operated 27 
companies, surrounded myself with outstanding employees and advisors.
    Working in concert with the U.S. Embassy, The Commonwealth of The 
Bahamas has tremendous opportunity to attract more U.S. business 
interests, increase economic stability, and to address regional 
challenges associated with drugs, human trafficking, and illegal 
immigration. If confirmed, I would dedicate all my passion, experience, 
and ability to ensuring that the United States of America maintains a 
mutually beneficial presence in The Bahamas that creates more safety 
for Americans and Bahamian citizens.
    Having employed thousands of people over the years, I have seen the 
impact that a job and a paycheck can have on a community. I herein 
pledge that if I am confirmed, I will do all in my power to advocate 
for U.S. companies and entrepreneurs to invest in The Bahamas. As our 
closest neighbor after Canada and Mexico, we must ensure that we 
maintain a strong presence there. We must demonstrate our own 
capabilities in The Bahamas to help the country create jobs and improve 
economic performance. When the world is working and families have 
incomes, it is a safer place.
    But in addition to our historically close economic and commercial 
ties, we have used our diplomatic relationship to help The Bahamas 
address a multitude of concerns from crime to environmental protection. 
We must continue to work together on increasing overall economic 
stability, reducing crime, and tackling human and drug trafficking 
issues.
    The stability of The Bahamas' is especially important to the United 
States as the country is commonly used as a gateway for drugs and 
illegal immigration into our country. Notably, The Bahamas was the 
first in the Caribbean to receive a Tier 1 ranking from the State 
Department's Trafficking in Persons report. If confirmed as Ambassador, 
I will ensure that our governments continue to build cohesive 
strategies to fight both drug and human trafficking. That includes 
continuing our support of the Royal Bahamas Police Force, which has 
played a vital role in the reduction of human and drug trafficking in 
the past few years.
    I fully recognize and dedicate myself to ensuring the safety of 
American citizens as the priority of our mission in The Bahamas. The 
Overseas Security Advisory Council (OSAC) currently indicates that the 
country's crime rating is at a critical level and the UN has noted that 
The Bahamas has the highest rate of rape in the entire Caribbean. It is 
essential that our mission in The Bahamas defend all human rights, and 
in doing so, we must continue to curtail major crimes, including rape, 
human and drug trafficking.
    Mr. Chairman, in closing I would like to say I have had a blessed 
life growing up in the greatest country in the world, and being 
nominated to represent it is both a remarkable honor and deeply 
humbling experience.
    I pledge to you and the American people that if confirmed, I will 
work tirelessly, personally, spiritually, and professionally, and 
alongside Congress, to faithfully represent American interests. I 
appreciate the opportunity to appear before you today, and God bless 
you for your service to our great country.
    I am happy to answer any questions you may have.


    Senator Rubio. I thank you for that final statement on the 
hard work. That is a matter of debate, but we are honored to do 
this.
    Just quickly, first of all, I want to congratulate you on 
your honesty and modesty because you said the second-largest 
Hyatt in America. You could have said one of the largest, or 
the largest, and let the fact-checkers take care of it. I will 
be curious to find out later who has the largest in either one.
    Mr. Manchester. That is in Chicago.
    Senator Rubio. That makes sense.
    You pointed to it already, and I just want to reiterate 
that The Bahamas has--on the issue of Venezuela, you heard some 
discussion about it here today, it has been one of the leading 
agenda items for the OAS. The Bahamas has consistently voted 
with the United States and the other democracies in the region 
in defense of democracy. We thank them for that. We are 
appreciative of it, and we just want your commitment that 
should that ever waiver, for whatever reason, that you will be 
firm and steadfast in supporting the Administration's position 
on that matter with the Bahamian authorities.
    Mr. Manchester. If I am fortunate enough to be confirmed by 
the Senate, you can have my assurance that I will always, and 
every inch of my fiber will, in fact, speak out for democracy 
and do all I can to work together with The Bahamas and the 
Bahamian Government to do this. It was a new government down 
there, a new beginning. I salute the democracy, that they 
recently had a great election, and new people are coming into 
power. It looks like, according to all the people that I talked 
to, including our Charge d'Affaires and our existing embassy 
staff down there, that it really looks bright.
    As I say, the greater America becomes, the greater benefit 
it will be for The Bahamas.
    Senator Rubio. And, by the way, just to be clear, I do not 
have any reason to believe that they would waiver in their 
commitment at the OAS, but it is important to put that on the 
record.
    Number two, as I commented to you earlier, from where I 
live in South Florida, my hometown of Miami, having someone 
come to you and say they are going to The Bahamas for the 
weekend, or even for the day, is not unusual. People just run 
over to Bimini for the day, they run over for the weekend, not 
to mention the number of cruise passengers who come to South 
Florida out of Ft. Lauderdale, Miami, even Tampa, and the 
cruises make stops at either private islands that are 
territories of The Bahamas or Nassau or some of the other ports 
of call.
    As a result of so many Americans literally overnighting 
back and forth, same-day trips, there is significant consular 
services oftentimes arise, medical emergencies, whatever it 
might be.
    Mr. Manchester. Yes.
    Senator Rubio. And I just seek your commitment that that 
will be among our foremost priorities while you are there, if 
confirmed, to ensure that we are providing and continue to 
provide first-class services for Americans in The Bahamas. If 
at any moment in time you feel that the resources available to 
you, because of cuts in the budget or the like, are undermining 
that mission, that you will commit to being clear and frank 
with both Congress and certainly the State Department about 
that.
    Mr. Manchester. I certainly will.
    Senator Rubio. And my last question involves China and 
fishing rights. Late last year it was reported that a Bahamian 
Government official had unauthorized talks with China to lease 
its waters, the waters of The Bahamas, for commercial fishing 
to the Chinese. This, without a doubt, is concerning because 
Florida's shores are in close proximity. While these talks did 
not yield an agreement, we remain concerned about the potential 
that Chinese commercial fishing vessels, which Beijing has used 
as a type of militia in the South China Sea, would be so close 
to U.S. waters and potentially involve now a dispute with 
American commercial and recreational fishing interests in what 
might be international waters, or even Bahamian waters.
    If confirmed, have you given any thought to how we would 
approach this issue with the Bahamian Government if that were 
to arise?
    Mr. Manchester. Well, I really do believe that the presence 
of Homeland Security and our Coast Guard off the shore and all 
of what we are doing to protect The Bahamas really needs to be 
continually emphasized to the Bahamian Government. Even though 
China has, in fact, made a significant economic contribution to 
the Commonwealth of The Bahamas in the form of hotels, resorts, 
and so on and so forth, that we just need to encourage more 
business from America to be there.
    I have already had talks with people at the University of 
The Bahamas. I think there is no reason why we cannot have a 
medical school there. I was part of the biotech cluster in La 
Jolla, and that is where the medical instrumentation and 
biotech came from, and I believe that with a medical school 
down there we could, in fact, encourage some medical 
instrumentation to be manufactured there and to do everything 
we possibly can to allow for America's interests to continually 
be appreciated and, as a result of being appreciated, certainly 
protecting our rights with regards to fishing and other 
security issues.
    Senator Rubio. And again, to be clear, that conversation 
happened. It was an unauthorized discussion between a member of 
the Government and the Chinese Government. But all these things 
you pointed to--security, cooperation, tourism, economic 
interrelations, medical school, economic contributions--all of 
these things would be endangered if at any point in the 
future--and I am not saying that it is going to happen, and it 
is certainly not a threat but just the reality. If at any point 
in the future the Bahamian Government considered leasing its 
waters for commercial fishing to the Chinese at the expense of 
the United States, so close to our shores, I think that would 
most certainly have a very negative impact on our relations 
with them, so I do appreciate your answer.
    The Ranking Member?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Manchester, how would you characterize the U.S.-Bahama 
relationship?
    Mr. Manchester. Well, as I mentioned, I think it is our 
third border--Canada, Mexico, and The Bahamas. It is 50 miles 
from our shore. It is incredibly important to us economically, 
and also incredibly important to us from a security standpoint. 
And as a result, I will do everything I possibly can to 
continue to promote democracy and the closeness, the close ties 
between the Bahamian Government, the Commonwealth of The 
Bahamas and also the United States.
    As Secretary Tillerson told me, we just need to do 
everything we possibly can to promote and make the Commonwealth 
of The Bahamas as great as it can be.
    Senator Menendez. Now, in your conversations with the 
Senate Foreign Relations Committee staff, you described The 
Bahamas as a protectorate of the United States. Is that a view 
that you believe is part of our relationship?
    Mr. Manchester. Well, certainly for all intents and 
purposes, we believe that it is a protectorate. We have the 
Coast Guard there, Homeland Security. We are obviously working 
with the Royal Bahamian Police Force, which we want to, in 
fact, continue to support, who are doing a great job in the 
interdiction of human trafficking and drugs, and also gun 
running.
    Senator Menendez. But a protectorate implies that the 
Bahamians are not a fully independent nation, that we somehow 
have some view that we have some type of quasi-control over 
them.
    Mr. Manchester. I do not believe that is what I mentioned. 
I think that, obviously, we have come to the help of Bermuda 
and other areas in the Caribbean, and also Canada and all the 
other countries that are surrounding us. We have to continue 
to, in fact, have a great military presence and make sure that 
we do not end up with a South China Sea situation in The 
Bahamas, the Commonwealth of The Bahamas.
    The Bahamas, 60 percent of their revenue comes from 
tourism, which I believe that will continue to increase. They 
have a huge number of islands, and it is a land mass of 5,000 
miles, the area of California, and 330,000 people, most of 
which, a couple of hundred thousand of them live in the Nassau 
area.
    So I think that, from a protectorate standpoint, if I said 
that, I said that in the context of which, in fact, we 
currently, in fact, have governmental agencies working hand in 
hand with the Bahamian Government.
    Senator Menendez. So, the South China Sea issue is because 
China, a major country, has decided to develop islands and move 
militarily. You are not suggesting that the Bahamians are going 
to pose a South China Sea challenge to us, are they?
    Mr. Manchester. I did not understand your question.
    Senator Menendez. You referred to, in part of your response 
to my previous question, that we do not want to see a South 
China Sea situation. The South China Sea, allusion to the South 
China Sea is China as a country has decided to develop islands 
in the South China Sea, militarize them, and try to claim them 
in international passageways. I do not see what your nexus is 
saying about the Bahamians, that you do not want to see a South 
China Sea situation.
    Mr. Manchester. Well, I might have misunderstood or 
misstated that particular statement.
    Senator Menendez. Let me ask you this. What do you believe 
would be your top three policy issues that you will pursue on 
behalf of the United States with the Bahamians?
    Mr. Manchester. Well, first of all, my responsibility is 
to--for the protection of the United States citizens traveling 
in The Bahamas, and obviously the protection of the embassy and 
all of its American citizens, and to promote economic well-
being by encouraging additional U.S. investment into the 
Bahamian Commonwealth.
    Senator Menendez. Okay. So, where do you rank our 
collective effort? If The Bahamas, as you say, is the third 
border, where do you rank the efforts to make sure that 
narcotics trafficking, much of which comes through the 
Caribbean, is a priority of your ambassadorship, should you be 
confirmed?
    Mr. Manchester. Well, that is a top priority, for sure.
    Senator Menendez. Okay. You did not mention it. That is why 
I am trying to figure it out.
    Let me ask you this. You talked about the importance of 
U.S. citizens, and I totally agree with that. You have a role, 
if confirmed, as the ambassador to, in essence, be the CEO of 
U.S. Embassy Nassau, and your role and responsibilities as a 
manager in the past has drawn some public criticism. One 
journalist from the San Diego Union Tribune, which you owned at 
one time, wrote the following, and I quote: ``Manchester 
acknowledges the hard-edged caricature is partly his fault, 
that one key issue is that he can be a bulldog, quick to temper 
and prone to verbal tirades.'' The same article said of you 
that you are prone to emotional outbursts, fiercely competitive 
and litigious, and talking about you only like big projects 
because you do not want singles or doubles, you are going after 
home runs.
    So temperament of a United States Ambassador is incredibly 
important.
    Mr. Manchester. Yes, it is.
    Senator Menendez. So I raise this question as I would of a 
judge when we talk about Federal judges' temperament on the 
bench. In terms of an ambassador, temperament is very important 
both for those who are going to be working under your 
leadership and those who you are going to be engaging with as 
the Ambassador of the United States to the Bahamian Government. 
Can you speak to those issues?
    Mr. Manchester. Yes, I can. First of all, I do not know 
exactly the article you are talking about, but it may have been 
written by a disgruntled reporter who was no longer with the 
Union Tribune. But the bottom line is that I have always 
believed through my entire life that you have to, in fact--
there is no ``I'' in ``team,'' and we are a team player. We 
have to do that at the embassy, and I will take my 
accomplishments that I have done and have excelled in over the 
last almost 50 years to be in a position where I think you will 
have as many counteracting articles written in how I have been 
able to, in fact, assemble great teams and be able to be 
successful, as you would from a disgruntled reporter.
    Senator Menendez. Well, another individual said, ``He likes 
the challenge of building something for nothing. Once it is up 
and running, it is boring to him. He is a very poor manager. He 
will tell you that.'' Is that a true statement?
    Mr. Manchester. I do not think that is true at all.
    Senator Menendez. Okay.
    Mr. Manchester. I managed the--I have built and managed 
many, many things. I built and managed the Grand Del Mar 
Resort, as an example, the number-one resort in America.
    Senator Menendez. Let me ask you two other lines of 
questioning. In 2008 you made a rather large donation in 
support of California Proposition 8 to oppose same-sex 
marriage. The donation created a good deal of controversy. Many 
of your hotels were the focus of a boycott campaign.
    Many people would see your view for Proposition 8 as 
support for a policy of discrimination. Would you like to 
clarify your position for the committee?
    Mr. Manchester. My position has been clarified many, many 
times. The fact that I am totally, 100 percent for human rights 
in all across the board, anything that the people want to do in 
this country and the parameters of the wall, they certainly 
are--I encourage them to do so. I have had many thousands of 
employees, the same percentage of gay and lesbian workers that 
have worked with me. I am not anti-gay. I am not--I support and 
have actually contributed the same amounts of money or more to 
the gay and lesbian effort and movement, and that was I think 
10 or 11 years ago when I was asked by the Catholic Bishop of 
San Diego--and I am a Catholic--to contribute, and I did, and 
my family was opposed to it, and I want to clarify the issue 
that that was a huge mistake, and I have more than done 
everything to rectify that mistake.
    Senator Menendez. Would you submit for the record your 
support that you just described of LGBT causes?
    Mr. Manchester. I think this is the record, and that does, 
in fact, support--I do, in fact----
    Senator Menendez. I will look at their filings. I do not 
recall it, but if you have it, that is fine. If you do not, I 
would like to see you submit it to the record.
    Let me ask you this.
    Mr. Manchester. Can I do that for the record? Sorry for 
interrupting, Senator.
    Senator Menendez. Yes.
    Mr. Manchester. Can I do that for the record right now?
    Senator Menendez. Sure.
    Mr. Manchester. The fact that I have certainly----
    Senator Menendez. If you want to do it verbally. I am 
saying if you want to submit a document saying here is the 
contributions, here are the efforts, here is the support I have 
given, and that will be part of the record. But if you want to 
do it verbally, and the Chairman is willing to give you the 
time, I am happy to have you do it.
    Mr. Manchester. Well, I certainly support gay and lesbian 
marriage, for the record.
    Senator Menendez. Let me ask you this. In 2016, the 
International Consortium of Investigative Journalists made a 
major disclosure about offshore banking practices in Panama, a 
trove of documents generally referred to as the Panama Papers. 
One of the companies listed in the Panama Papers was the 
Manchester Financial Group, which happens to be the name of 
your company.
    Can you clarify whether your company has ever used offshore 
banking services in Panama?
    Mr. Manchester. Never, never, ever. I cannot control people 
using the Manchester name. The Manchester soccer team in 
England probably makes--maybe is not--but my name is 
Manchester, and I have never had anything to do with that 
referred name even though it has the same name as my company. 
But I have never, ever----
    Senator Menendez. So the Manchester Financial Group in the 
Panama Papers, which just happens to be the same name as your 
company, is not your company is what you are saying to the 
committee.
    Mr. Manchester. Absolutely not. It has nothing to do with--
--
    Senator Menendez. And you have never had offshore bank 
accounts in Panama?
    Mr. Manchester. Never.
    Senator Menendez. How about anywhere else?
    Mr. Manchester. Never, ever.
    Senator Menendez. Okay. All right. I appreciate your 
answers to my questions.
    Mr. Manchester. Thank you, Senator. Appreciate it.
    Senator Rubio. Seeing no further questions, I would thank 
you for your time here today and for your testimony. At some 
point the Chairman--and I do not know what the Chairman of the 
full committee will proceed to schedule what is called a 
business meeting on your nomination, and then there will be a 
vote on that.
    The record for this hearing will also remain open for 48 
hours so there may be additional questions submitted by the 
members that were not able to attend. I encourage you to answer 
those as soon as possible. It will help close up the record of 
the hearing.
    Again, we thank you and your family for being here and for 
your willingness to appear before us and your willingness to 
serve the country.
    With that, this hearing is adjourned.


    [Whereupon, at 12:30 p.m., the hearing was adjourned.]



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
               Doug Manchester by Senator Robert Menendez

    Question 1. Mr. Manchester, I would pose to you a question that I 
have asked several of our nominees--do you believe that the Russian 
Government directly interfered in the U.S. elections in 2016?
    Answer. Multiple media outlets have reported that top intelligence 
officials believe that Russia directly interfered in the U.S. election, 
though they were not able to alter the outcome. I have no reason to 
doubt these reports.

    Question 2. Mr. Manchester, in the documents you submitted to the 
committee, you listed an investment of over $5 million in company 
called GeoPark, Ltd. I understand that you are close with owners of the 
company. I also understand that the Chilean environmental regulator has 
investigated GeoPark for illegal fracking without appropriate permits.
   Could you clarify your position on this issue?

    Answer. I have no knowledge of this matter, and I am not an officer 
or a part of its management. I am only a shareholder, and I have no 
influence over GeoPark.
    From a personal standpoint, I do not agree with the policy of 
fracking if it is not in full compliance with applicable laws.

    Question 3. In your confirmation hearing, you indicated that the 
``Manchester Financial Group'' that appeared the Panama Papers is not 
the same Manchester Group that is your company. Do you have any 
documentation or other evidence that there is another company or 
business called the Manchester Group that is listed in the Panama 
Papers?

    Answer. As I stated during my August 2nd confirmation hearing, my 
company has never used offshore banking services in Panama. 
Unfortunately, I cannot control the use of the relatively common last 
name, ``Manchester,'' and do not have the ability to produce records 
for the company cited in the Panama Papers.

    Question 4. In your hearing, you indicated that you had given an 
equal amount of money to organizations that advocate for the LGBT 
community--$125,000--as you had to the California Prop 8 campaign. You 
indicated you had documentation; could you please provide it?

    Answer. I pledged to donate $125,000 in support of the current 
civil rights endeavors of the LGBT community and made personal 
contributions of $25,000 during May of 2010 to the following 
organizations:

   $4,000 to NAGAAA (North American Gay Amateur Athletic Alliance)
   $6,000 to GOPROUD
   $8,000 to GLIDE Pride Team
   $7,000 to Rainbow World Fund

    In addition, as the owner of the Hyatt, I authorized $100,000 in 
hotel credit to local gay and lesbian organizations for use of 
facilities, goods and services for events and fundraisers at the 
Manchester Grand Hyatt.
    Please find the requested documentation attached.


    [The documentation requested is located at the end of this hearing 
transcript.]

                               __________


     Responses to Additional Questions for the Record Submitted to 
             Doug Manchester by Senator Benjamiin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have been significantly involved in my community of San 
Diego for over 40 years, and have dedicated myself to giving back and 
ensuring others can have an equal opportunity for a bright and 
successful future. While I have a personal, emotional, and spiritual 
devotion to all human rights, three of the main tenets of my 
philanthropic efforts have been related to promoting dignity and 
freedom of individuals by supporting programs related to health and 
human services, education, and youth.
    I had an integral part in founding the Preuss School, the Monarch 
School, and the Polinsky Center in San Diego. These three organizations 
assist children who are impacted by homelessness, poverty, and abuse. 
My goal is to empower our youth to become educated and prepared for 
opportunities that might have otherwise been unattainable for them. The 
impact of these organizations that I have helped to found has meant 
that over 5,000 young children have had a chance to receive an 
education.
    In 2015, I received the Shepherd of Humanity Award from the 
Neighborhood Market Association and the Chaldean community at large. 
The Shepherd of Humanity Award is given in recognition of an 
individual's extraordinary contributions to the Chaldean-Christian 
community globally. The Chaldean community of San Diego includes many 
refugees who fled Iraq and have struggled to build a new life in the 
U.S.
    I am actively involved with the organization Project Concern 
International (PCI), which is aimed at reducing global hunger, 
promoting human rights, enhancing health, overcoming hardship, 
supporting women, and eliminating human trafficking. Through this 
organization, I believe I have a great understanding of the challenge 
human trafficking poses, and am better equipped to help fight human 
trafficking in The Bahamas, one of their major challenges.
    Since I registered to vote when I was eighteen, I have actively 
taken part in the democratic process and have received many awards for 
leadership. I have expressed my love and support of America and the 
values that have made us the greatest nation in the world in open 
forums. My opinions in support of this incredible democracy are well 
known and frequently publicized. I have committed myself to the 
philosophy of "community before self" in all my endeavors. I cannot 
overstate my passion for humanity, the unwavering will to do right for 
all people, and a life-long commitment to work tirelessly to improve 
the human condition.

    Question 2. What are the most pressing human rights issues in The 
Bahamas today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in The Bahamas? What 
do you hope to accomplish through these actions?

    Answer. The most serious human rights problems in The Bahamas as 
outlined in the State Department's 2016 human rights report include 
mistreatment of irregular migrants, an inefficient judicial system, and 
the perception of impunity on the part of law enforcement and 
immigration officials accused of using excessive force. If confirmed, I 
will address those problems by: partnering with human rights 
organizations to support their efforts to get access to Bahamian 
detention facilities; partnering with NGOs that work on the 
administration of justice to help The Bahamas develop alternatives to 
prosecutions such as plea bargaining to reduce the judicial case load; 
and providing training to further professionalize Bahamian law 
enforcement and defense personnel, including through human rights 
training.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in The Bahamas in 
advancing human rights, civil society and democracy in general?

    Answer. Historically, the most serious obstacles to progress on 
human rights in The Bahamas have been the lack of government focus and 
the sometimes contentious relationship between the Government and human 
rights NGOs. The new government, elected in May 2017, seems amenable to 
a more constructive relationship on these issues so, if confirmed, I 
anticipate expanding cooperation. Therefore, we will focus on aligning 
needs with resources in consultation with the Government of the 
Commonwealth of The Bahamas.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Republic of The Bahamas?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and non-governmental organizations in The Bahamas.
    Question 5. Will you engage with the Bahamians on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will work with the Government of The 
Bahamas to engage on matters of human rights, civil rights, and 
governance.

    Question 6. Do you commit to bring to the Committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you commit to inform the Committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you or do any members of your immediate family have 
any financial interests in The Bahamas?

    Answer. As reported on my OGE Form 278e, Section 2: I own shares of 
stock in Walt Disney Co. and Brookfield Asset Management, all of which 
I have committed to sell, if confirmed.
    As reported on my OGE Form 278e, Section 2: In June of 2016, 
Manchester Lyford Ltd. purchased a residence in Lyford Cay, to be used 
as a private residence for my family.

    Question 9. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. At the core of any organization are its people. The senior 
leaders of the Department are committed to having a workforce that 
reflects the diverse people that it represents. If confirmed, I am 
determined to provide a variety of training opportunities, mentoring, 
and career development programs to ensure that employees have the 
skills necessary for current and future work assignments. Not only 
because embracing diversity enhances the development of the team in The 
Bahamas, but also because it increases proficiency levels, promotes a 
workplace culture that values the efforts of all members, and enhances 
the professional experience of our valued public servants, something 
that I saw in business. If confirmed, I look forward to leading the 
team of U.S and Bahamian nationals at Embassy Nassau and tapping into 
the unique and diverse talents each person brings to maintain our 
strong relationship with The Bahamas and promote U.S. foreign policy 
objectives.

    Question 10. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The State Department is committed to equal employment 
opportunity (EEO) and ensuring the Department's work environment is 
free from prohibited discrimination in all phases of employment--
including recruitment, hiring, evaluation, promotion, and training. 
This includes improving and enhancing mentorship programs, expanding 
outreach to managers who make hiring decisions, and encouraging 
collaboration with external partners. If I am confirmed, I will 
strongly communicate the Department's EEO policies in my mission and 
ensure they are followed. I will also take advantage of the variety of 
programs the Department offers to help supervisors work with a 
multicultural staff.

    Question 11. Given your past support for California Proposition 8 
against same sex marriage, would you please clarify your position with 
regard to LGBT rights?

    Answer. As I stated during my Senate Confirmation Hearing on 
Wednesday, August 2nd, I support same sex marriage and the civil rights 
efforts of the LGBT community. I am not, nor was I ever, anti-gay. I 
respect all members of the LGBT community, and I continue to welcome 
and celebrate diverse communities and interests, including those of 
LGBT people.
    Please see the attached letter that I wrote in May 2010 outlining 
my views in light of California Proposition 8. [See Question 4 of Mr. 
Manchester's responses to questions from Senator Menendez.]Questions 
for the Record Submitted to

    Question 12. If confirmed, would you speak out in support of LGBT 
rights in The Bahamas?

    Answer. Yes, as I indicated in my Senate Confirmation Hearing on 
Wednesday, August 2nd, I will most certainly speak out in support LGBT 
rights in The Bahamas.

    Question 13. Given the tremendous convening power that a U.S. 
Ambassador has, will you commit to inviting members of the LGBT 
community in The Bahamas to events at your residence?

    Answer. Yes.

    Question 14. If a U.S. citizen that happens to be an LGBT 
individual is in need of consular attention, would you ensure that the 
Embassy provides all necessary services?

    Answer. Yes.


                             __________


    Response to An Additional Question for the Record Submitted to 
               Doug Manchester by Senator Jeanne Shaheen

    Question 1. Mr. Manchester, as you may know, the Caribbean region 
has often been a difficult place for LGBTQ people, with high levels of 
violence targeting them and a number of national laws that criminalize 
homosexuality. While The Bahamas has taken some steps to improve the 
situation in their country, it still could do more to improve safety 
and security for LGBTQ people who face threats of violence because of 
their sexual identity.
    Over the last few years, I am grateful that the U.S. has begun to 
include LGBTQ issues as a human rights concern in our foreign policy, 
which is why I find it somewhat worrying that you were a major funder 
of Proposition 8 in California, which sought to ban same-sex marriage 
in that state in 2008.

   Can you tell us how you would continue U.S. efforts to promote 
        LGBTQ people's human rights in The Bahamas, and how you could 
        work with the Government in The Bahamas to help them take 
        further steps toward protecting the human rights of their LGBTQ 
        citizens?

    Answer. I am completely committed to promoting human rights and 
inclusion for all people. If confirmed, I would lead the ongoing 
efforts of U.S. Embassy Nassau to promote the human rights of LGBTQ 
persons in The Bahamas. I would engage with Bahamian Government 
officials on the issue and continue to affirm U.S. solidarity with 
human rights defenders and civil society organizations working to 
uphold fundamental freedoms of LGBTQ persons to live with dignity and 
freedom. Embassy statements supporting LGBTQ rights, and expressions of 
solidarity such as the embassy's celebration of Pride Day, are 
important ways we can signal U.S. support and offer the LGBTQ community 
a measure of protection from violence. By continuing to align our 
embassy outreach and programming efforts, I believe that we can move 
the needle forward on LGBTQ issues in The Bahamas.

                               __________

         Documentation Submitted by Mr. Manchester in Response 
                  to Senator Menendez's Question No. 4
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
